APPENDIX

United States v. Johnson, 979 F.3d 632 (2020)
20 Cal. Daily Op. Serv. 11,059, 2020 Daily Journal D.A.R. 11,493

Affirmed.
KeyCite Yellow Flag - Negative Treatment
Disagreed With by United States v. Nasir, 3rd Cir.(Del.), December 1,
2020

979 F.3d 632
United States Court of Appeals, Ninth Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
Lamar JOHNSON, Defendant-Appellant.

Opinion,

Procedural Posture(s): Appellate Review.
West Headnotes (9)
[1]

Synopsis
Background: In prosecution for being a felon in possession
of firearms, the United States District Court for the Northern
224 F.Supp.3d

881 and
2016 WL 7369272, denied defendants' motions
to suppress, and defendant was convicted of the charged
offenses at a stipulated-facts bench trial. Defendant appealed.
The Court of Appeals,
913 F.3d 793, affirmed. The
Supreme Court granted certiorari, vacated the judgment, and
remanded for further consideration in light of intervening
change in law.

6 Cases that cite this headnote
[2]

[2] the plain error at defendant's trial did not seriously
affect the fairness, integrity, or public reputation of judicial
proceedings.

Criminal Law

Review

In a bench trial, a district court's legal error
regarding the elements of the offense is reviewed
in the same way appellate court reviews an
erroneous jury instruction regarding the elements
of the offense.

Holdings: On remand, the Court of Appeals, Watford, Circuit
Judge, held that:
[1] determination of whether plain error at trial, in failing
to require government to prove defendant's knowledge of
his status as convicted felon, seriously affected the fairness,
integrity, or public reputation of judicial proceedings, was not
limited to the record developed at trial, and

Criminal Law
Jurisdiction and
proceedings for review; preservation of error
Court of Appeals would review defendant's
claim that district court applied wrong legal
standard during bench trial in assessing his
guilt for being felon in possession of firearm,
specifically, by omitting knowledge-of-status
element, for plain error, rather than de
novo, although defendant framed argument
as challenge to sufficiency of the evidence;
defendant did not contest that government
introduced evidence sufficient to satisfy each of
the elements required for conviction at time of
trial, and defendant's failure to object at trial
to district court's omission of knowledge-ofstatus element triggered review under plain-error
standard. Fed. R. Crim. P. 52(b).

No. 17-10252
|
Argued and Submitted March 12,
2020 San Francisco, California
|
Filed June 25, 2020
|
Amended October 26, 2020

District of California, William Alsup, J.,

963 F.3d 847, superseded.

[3]

Criminal Law
defenses

Elements of offense and

Jury instruction that omits an element of the
offense is reviewed for plain error if the
defendant failed to object in the district court;
that remains true even if a solid wall of circuit
authority would have rendered any objection
futile at the time of trial.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

LJ - 001 1

United States v. Johnson, 979 F.3d 632 (2020)
20 Cal. Daily Op. Serv. 11,059, 2020 Daily Journal D.A.R. 11,493

[4]

Criminal Law
General

consider entire record on appeal, where there was
an intervening change in law while the case was
on appeal, i.e., addition of knowledge element of

Necessity of Objections in

To establish plain error, a defendant must show
that: (1) there was an error; (2) the error
is clear or obvious; (3) the error affected
defendant's substantial rights; and (4) the error
seriously affected the fairness, integrity, or public
reputation of judicial proceedings. Fed. R. Crim.
P. 52(b).

the offense.
18 U.S.C.A. § 922(g)(1); Fed. R.
Crim. P. 52(b).
4 Cases that cite this headnote
[8]

11 Cases that cite this headnote
[5]

Criminal Law
General

Necessity of Objections in

8 Cases that cite this headnote
Criminal Law
General

Necessity of Objections in

The power to correct unpreserved errors, on
plain-error review, must be used sparingly, solely
in those circumstances in which a miscarriage of
justice would otherwise result. Fed. R. Crim. P.
52(b).
3 Cases that cite this headnote
[7]

Jurisdiction and
Criminal Law
proceedings for review; preservation of error
Assuming that district court's plain error during
bench trial in failing to require government to
prove defendant's knowledge of his status as
convicted felon affected his substantial rights, in
prosecution for being a felon in possession of
firearms, the Court of Appeals, in considering
whether the plain error seriously affected the
fairness, integrity, or public reputation of judicial
proceedings, was not limited to record developed
at stipulated-facts bench trial, and instead could

Necessity of Objections in

To satisfy the requirement, for reversal on
plain-error review, that the error must have
seriously affected the fairness, integrity, or public
reputation of judicial proceedings, if retrial
would be permissible, a defendant must offer a
plausible basis for concluding that an error-free
retrial might end more favorably, because if the
hypothetical retrial is certain to end in the same
way as the first one, then refusing to correct an
unpreserved error will, by definition, not result in
a miscarriage of justice, and instead will produce
the very sort of wasteful reversal that plain-error
review aims to avoid. Fed. R. Crim. P. 52(b).

The requirement, for reversal on plain-error
review, that the error must have seriously
affected the fairness, integrity, or public
reputation of judicial proceedings helps enforce
one of core policies of plain-error review, which
is to reduce wasteful reversals by demanding
strenuous exertion to get relief for unpreserved
error. Fed. R. Crim. P. 52(b).

[6]

Criminal Law
General

7 Cases that cite this headnote
[9]

Criminal Law
Jurisdiction and
proceedings for review; preservation of error
Assuming that district court's plain error, at
stipulated-facts bench trial in prosecution for
being a felon in possession of firearms, in failing
to require government to prove defendant's
knowledge of his status as convicted felon
affected his substantial rights, the error did not
seriously affect the fairness, integrity, or public
reputation of judicial proceedings, as required
for reversal on plain-error review, where there
was no plausible basis for concluding that an
error-free retrial might end more favorably;
record on appeal contained overwhelming
and uncontroverted evidence of defendant's
knowledge of his status as convicted felon,
based on his history of having already served
three prison sentences exceeding one year. 18
U.S.C.A. § 922(g)(1); Fed. R. Crim. P. 52(b).
14 Cases that cite this headnote

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

LJ - 002 2

United States v. Johnson, 979 F.3d 632 (2020)
20 Cal. Daily Op. Serv. 11,059, 2020 Daily Journal D.A.R. 11,493

When this case was last before us, we affirmed Lamar
Johnson's convictions for being a felon in possession of a
Attorneys and Law Firms
*634 Robin Packel (argued), Assistant Federal Public
Defender; Steven G. Kalar, Federal Public Defender; Office
of the Federal Public Defender Oakland, California; for
Defendant-Appellant.
Alexis J. Loeb (argued) and Philip Kopczynski, Assistant
United States Attorneys; Merry Jean Chan, Chief, Appellate
Section, Criminal Division; David L. Anderson, United States
Attorney; United States Attorney's Office, San Francisco,
California; for Plaintiff-Appellee.

18 U.S.C. § 922(g)(1).
United
firearm in violation of
States v. Johnson, 913 F.3d 793 (9th Cir. 2019). After we
Rehaif v.
issued our opinion, the Supreme Court decided
United States, ––– U.S. ––––, 139 S. Ct. 2191, 204 L.Ed.2d
594 (2019). There, the Court held that a defendant may be
convicted under *635
§ 922(g) only if the government
proves that the defendant “knew he belonged to the relevant
category of persons barred from possessing a firearm”—in
our case, those convicted of a crime punishable by more than

Doug Keller, The Law Office of Doug Keller, San Diego,
California; Devin Burstein, Warren & Burstein, San Diego,
California; for Amici Curiae Doug Keller and Devin Burstein.

Id. at 2200. Johnson filed a
one year of imprisonment.
petition for certiorari in which he argued for the first time
that the government failed to prove at trial that he knew of
his status as a convicted felon. The Supreme Court granted
his petition, vacated the judgment, and remanded the case for

On Remand From the United States Supreme Court, D.C. No.
3:16-cr-00251-WHA-1

further consideration in light of Rehaif. ––– U.S. ––––, 140
S. Ct. 440, 205 L.Ed.2d 250 (2019).

Before: J. Clifford Wallace, Johnnie B. Rawlinson, and Paul
J. Watford, Circuit Judges.

Following remand, we received supplemental briefs from the
parties and heard oral argument. After considering the parties’

ORDER
963
The opinion filed on June 25, 2020, and published at
F.3d 847, is amended by the opinion filed concurrently with
this order.
With these amendments, the panel unanimously votes to deny
the petition for panel rehearing. Judge Rawlinson and Judge
Watford voted to deny the petition for rehearing en banc,
and Judge Wallace so recommends. The full court has been
advised of the petition for rehearing en banc, and no judge
requested a vote on whether to rehear the matter en banc. Fed.
R. App. P. 35. The petition for panel rehearing and rehearing
en banc, filed August 7, 2020, is DENIED.
No further petitions for panel rehearing or rehearing en banc
will be entertained.

contentions regarding the effect of
Johnson's convictions.

The background facts may be briefly summarized. The
government charged Johnson with various drug and firearms
offenses, including two counts of being a felon in possession
of a firearm. Johnson moved to suppress the firearms and
other evidence found during searches of his home and car.
The district court denied the motion. To facilitate appellate
review of that ruling, Johnson waived his right to a jury
trial and agreed to proceed with a stipulated-facts bench trial.
In lieu of calling witnesses, the parties submitted a written
stipulation describing the agreed-upon facts, which included,
as relevant here, that two different firearms were found in
Johnson's possession on separate dates and that, prior to the
dates in question, he “had been convicted of a felony, i.e., a
crime punishable by imprisonment for a term exceeding one
year.” On the basis of the stipulated facts, the district court
found Johnson guilty of violating

OPINION
WATFORD, Circuit Judge:

Rehaif, we again affirm

18 U.S.C. § 922(g)(1).

Johnson frames his argument on remand as a challenge to the
sufficiency of the evidence. He contends that his
§ 922(g)
convictions must be reversed because the government did
not introduce sufficient evidence establishing that he knew
of his status as a convicted felon. Johnson did not raise this

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

LJ - 003 3

United States v. Johnson, 979 F.3d 632 (2020)
20 Cal. Daily Op. Serv. 11,059, 2020 Daily Journal D.A.R. 11,493

challenge in the district court, which is not surprising. At the
time of Johnson's trial, our circuit's law did not require the
government to prove that a defendant knew of his status as
United States v. Miller, 105 F.3d
a convicted felon. See
552, 555 (9th Cir. 1997). The Supreme Court's decision in
Rehaif first imposed that requirement after Johnson's trial
concluded.
In our initial opinion on remand, we accepted Johnson's
framing of the issue and analyzed his argument as a challenge
to the sufficiency of the evidence. Because Johnson had not
raised his sufficiency-of-the-evidence challenge in the district
court, we reviewed his claim for plain error under Federal
United States v.
Rule of Criminal Procedure 52(b). See
Johnson, 963 F.3d 847, 850 (9th Cir. 2020).
After we filed our opinion, Johnson petitioned for rehearing
and rehearing en banc. In conjunction with that petition, we
received a brief from amici curiae drawing our attention to
United States v. Atkinson, 990 F.2d 501 (9th Cir. 1993) (en
banc), a case that neither of the parties had previously cited.
In
Atkinson, our court held that a defendant who pleads
not guilty and proceeds to a bench trial need not move for a
judgment of acquittal in order to preserve a challenge to the
sufficiency of the evidence. Id. at 503. “A motion to acquit
is superfluous,” we reasoned, “because the plea of not guilty
has brought the question of the sufficiency of the evidence
to the court's attention.”
Id. Because Johnson pleaded not
guilty and was convicted following a bench trial, amici argued
*636 that we should have reviewed Johnson's sufficiencyof-the-evidence challenge de novo rather than under the plainerror standard. We asked the government and Johnson to
submit a second round of supplemental briefs addressing the
impact of

Atkinson on the outcome of this appeal.

[1] Having reviewed the parties’ submissions, we reaffirm
our conclusion that Rule 52(b)’s plain-error standard governs
here. Our reasoning differs, however, from that offered in our
original opinion.
We agree with the government that, although Johnson has
framed his argument as a challenge to the sufficiency of
the evidence, that is not in fact the correct way to conceive
of it. Our court has held that a sufficiency challenge must
be assessed against the elements that the government was
required to prove at the time of trial. United States v. Kim,

65 F.3d 123, 126–27 (9th Cir. 1995); see
United States v.
Weems, 49 F.3d 528, 530–31 (9th Cir. 1995). Johnson does not
contest that the government introduced evidence sufficient to
satisfy each of the elements required for conviction at the time
of his trial. Thus, Johnson's argument is best understood not as
a challenge to the sufficiency of the evidence, but rather as a
claim that the district court applied the wrong legal standard in
assessing his guilt—specifically, by omitting the knowledgeof-status element now required under
announced in

Rehaif. The rule we

Atkinson therefore does not apply here.

[2] [3] In a bench trial, a district court's legal error regarding
the elements of the offense is reviewed in the same way we
review an erroneous jury instruction regarding the elements
of the offense.
United States v. Argueta-Rosales, 819 F.3d
1149, 1156 (9th Cir. 2016). A jury instruction that omits
an element of the offense is reviewed for plain error if the
Johnson
defendant failed to object in the district court.
v. United States, 520 U.S. 461, 465–66, 117 S.Ct. 1544,
137 L.Ed.2d 718 (1997). That remains true even if “a solid
wall of circuit authority” would have rendered any objection
futile at the time of trial.
United States v. Keys, 133 F.3d
1282, 1284, 1286–87 (9th Cir. 1998) (en banc). Under this
framework, Johnson's failure to object at trial to the district
court's omission of the knowledge-of-status element triggers
review under the plain-error standard of Rule 52(b).
[4] To establish plain error, Johnson must show that (1)
there was an error, (2) the error is clear or obvious, (3)
the error affected his substantial rights, and (4) the error
seriously affected the fairness, integrity, or public reputation
of judicial proceedings.
United States v. Benamor, 937
F.3d 1182, 1188 (9th Cir. 2019). The government concedes
that the first two prongs are met: The district court erred by
not requiring the government to prove Johnson's knowledge
of his status as a convicted felon, and that error is now clear
following Rehaif. We will further assume without deciding
that the district court's error affected Johnson's substantial
rights, thereby satisfying the third prong. Only the fourth
prong remains in dispute.
[5] [6] Under the fourth prong, Johnson must show that the
district court's error seriously affects the fairness, integrity, or
public reputation of judicial proceedings. That requirement
helps enforce one of Rule 52(b)’s core policies, which is to
“reduce wasteful reversals by demanding strenuous exertion

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

LJ - 004 4

United States v. Johnson, 979 F.3d 632 (2020)
20 Cal. Daily Op. Serv. 11,059, 2020 Daily Journal D.A.R. 11,493

to get relief for unpreserved error.”
United States v.
Dominguez Benitez, 542 U.S. 74, 82, 124 S.Ct. 2333, 159
L.Ed.2d 157 (2004). As the Supreme Court has stated, Rule
52(b) authorizes courts to correct unpreserved errors, but that
power “is to be ‘used sparingly, solely in those circumstances
in which a miscarriage *637 of justice would otherwise
result.’ ”

United States v. Young, 470 U.S. 1, 15, 105 S.Ct.

1038, 84 L.Ed.2d 1 (1985) (quoting United States v. Frady,
456 U.S. 152, 163 n.14, 102 S.Ct. 1584, 71 L.Ed.2d 816
(1982)).
[7] The central issue we must decide is whether, in assessing
the fourth prong of the plain-error standard, we may consider
the entire record on appeal or only the record developed
at trial. If we are limited to considering the trial record
alone, as Johnson urges, his case for reversal appears strong.
The factual stipulation submitted by the parties does not
state whether Johnson knew he had been convicted of a
crime punishable by imprisonment for more than a year. It
merely states, as a matter of historical fact, that Johnson
had previously been convicted of “a crime punishable by
imprisonment for a term exceeding one year.” Without more
information about the nature of the crime or the length of
the sentence imposed, a rational trier of fact would be hard
pressed to infer that Johnson knew of his prohibited status as
required under Rehaif. And that failure of proof might well
be deemed to affect the fairness or integrity of the judicial
proceedings resulting in his convictions. See United States
v. Cruz, 554 F.3d 840, 851 (9th Cir. 2009). For the reasons
explained below, however, we think it is appropriate in this
case to review the entire record on appeal—not just the record
adduced at trial—in assessing whether Johnson has satisfied
the fourth prong of plain-error review.
[8] Because Johnson's challenge is properly understood as
a claim of trial error, retrial would be permitted even if
he succeeded in establishing plain error on appeal. See
Weems, 49 F.3d at 530 (citing
United States v.
DiFrancesco, 449 U.S. 117, 101 S.Ct. 426, 66 L.Ed.2d 328
(1980)). To satisfy the fourth prong when a retrial would
be permissible, a defendant must offer a plausible basis for
concluding that an error-free retrial might end more favorably.
For if the hypothetical retrial is certain to end in the same
way as the first one, then refusing to correct an unpreserved
error will, by definition, not result in a miscarriage of justice.
Indeed, choosing to correct the error in those circumstances
would produce the very sort of “wasteful reversals” that Rule

52(b) aims to avoid.
124 S.Ct. 2333.

Dominguez Benitez, 542 U.S. at 82,

The Supreme Court's most analogous plain-error cases
support this view, albeit without analyzing the issue explicitly
in these terms. In
Johnson v. United States, 520 U.S. 461,
117 S.Ct. 1544, 137 L.Ed.2d 718 (1997), the Court was asked
to decide whether the district court's plain error in failing
to submit an element of the offense to the jury warranted
relief under Rule 52(b).
Id. at 463, 117 S.Ct. 1544.
The Court assumed that the error affected the petitioner's
substantial rights but held that she could not satisfy the fourth
prong of plain-error review because the evidence supporting
the omitted element—materiality—was “overwhelming” and
“essentially uncontroverted.”
Id. at 469–70, 117 S.Ct.
1544. The Court stressed that, even in her briefs on appeal,
“petitioner has presented no plausible argument that the false
statement under oath for which she was convicted ... was
somehow not material to the grand jury investigation.”
Id.
at 470, 117 S.Ct. 1544. Presumably, if the petitioner had
articulated a plausible argument for why the jury could have
found in her favor on materiality, remand for a retrial at which
the jury was required to decide that element would have been
warranted. But in the absence of any such argument, the
Court concluded that no miscarriage of justice would result
by leaving the district court's error uncorrected. See

id.

*638 The Court reached the same conclusion in
United
States v. Cotton, 535 U.S. 625, 122 S.Ct. 1781, 152
L.Ed.2d 860 (2002). That case involved a drug-trafficking
prosecution in which the indictment failed to allege a fact
—drug quantity—required under the rule established in
Apprendi v. New Jersey, 530 U.S. 466, 120 S.Ct. 2348,
147 L.Ed.2d 435 (2000). See

Cotton, 535 U.S. at 627–28,

122 S.Ct. 1781. As in
Johnson, the Court assumed that
the defendants’ substantial rights were affected by the error
but found the fourth prong of plain-error review had not been
satisfied.
Id. at 632–33, 122 S.Ct. 1781. Relying on the
“overwhelming and uncontroverted” evidence establishing
that the defendants had trafficked in quantities well above
the relevant thresholds, the Court held that the error did not
seriously affect the fairness, integrity, or public reputation
of their proceedings.
Id. at 633–34, 122 S.Ct. 1781.
After cataloging the evidence introduced at trial, the Court

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

LJ - 005 5

United States v. Johnson, 979 F.3d 632 (2020)
20 Cal. Daily Op. Serv. 11,059, 2020 Daily Journal D.A.R. 11,493

observed: “Surely the grand jury, having found that the
conspiracy existed, would have also found that the conspiracy
Id. at 633,
involved at least 50 grams of cocaine base.”
122 S.Ct. 1781. In other words, no point would have been
served by reversing the defendants’ convictions and requiring
the prosecution to begin anew with an indictment issued by a
properly instructed grand jury.
Johnson and
Cotton confirm that the fourth prong of
plain-error review is designed, in part, to weed out cases in
which correction of an unpreserved error would ultimately
have no effect on the judgment. In those two cases, the Court
was not attempting to determine whether the grand and petit
juries had actually made the findings required for indictment
or conviction, notwithstanding the challenged errors. It was
undisputed that the juries had not done so, because they
had not been asked to make those findings. The Court
was thus engaged in making a predictive judgment about
whether, if the defendants’ convictions were reversed and
the prosecution or trial had to start over, the outcome would
potentially be any different. In the face of overwhelming and
uncontroverted evidence suggesting that the answer was no,
and with the defendants offering no plausible argument to
conclude otherwise, the Court held that the errors in question
did not seriously affect the fairness, integrity, or public
reputation of judicial proceedings. In fact, the Court stated, “it
would be the reversal of [the defendant's conviction] which
would have that effect.”

Johnson, 520 U.S. at 470, 117

S.Ct. 1544 (emphasis added); see
122 S.Ct. 1781.

Cotton, 535 U.S. at 634,

With that understanding of the inquiry required when a
retrial would be permissible, we see no basis for limiting
our review under the fourth prong to the record adduced at
trial. In a case like this one, in which the error under review
involves omission of an element of the offense, the record
on appeal will often not disclose what additional evidence
the government would introduce to prove an element that it
had no reason to prove during the first trial. But if the record
on appeal does disclose what that evidence consists of, and
the evidence is uncontroverted, we can think of no sound
reason to ignore it when deciding whether refusal to correct
an unpreserved error would result in a miscarriage of justice.

Johnson knew of his status as a convicted felon. And
given the overwhelming and uncontroverted nature of that
evidence, Johnson cannot show that refusing to correct the
district court's error would result in a miscarriage of justice.
According to the presentence report prepared in this case,
at *639 the time he possessed the firearms, Johnson had
sustained the following convictions: a 1998 felony conviction
for which he received a sentence of 28 months in prison;
a 2004 felony conviction for which he received a sentence
of two years in prison; and a 2007 felony conviction for
which he was again sentenced to two years in prison. In his
supplemental brief, Johnson does not dispute the accuracy of
the presentence report's description of his criminal history. In
light of the sentences imposed in his earlier cases, Johnson
cannot plausibly argue that a jury (or judge, if he opted again
for a bench trial) would find that he was unaware of his status
as someone previously convicted of an offense punishable
by more than a year in prison. After all, he had in fact
already served three prior prison sentences exceeding one
year. Cf. Rehaif, 139 S. Ct. at 2198 (noting that a defendant
“who was convicted of a prior crime but sentenced only to
probation” might be able to claim that he did not know he had
been convicted of a crime punishable by more than a year of
imprisonment).
Several of our sister circuits have relied on uncontroverted
evidence that a defendant was sentenced to more than a year
in prison when rejecting post-

Rehaif challenges to trial

verdicts under plain-error review. See, e.g.,

United States

v. Maez, 960 F.3d 949, 959–60 (7th Cir. 2020);
United
States v. Miller, 954 F.3d 551, 559–60 (2d Cir. 2020); see
also
Benamor, 937 F.3d at 1189. 1 We conclude that such
evidence will ordinarily preclude a defendant from satisfying
the fourth prong of plain-error review when challenging the
district court's failure to require the government to prove that
the defendant knew of his status as a convicted felon.
AFFIRMED.
All Citations
979 F.3d 632, 20 Cal. Daily Op. Serv. 11,059, 2020 Daily
Journal D.A.R. 11,493

[9] In this case, the record on appeal contains additional
evidence the government would introduce to prove that

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

LJ - 006 6

United States v. Johnson, 979 F.3d 632 (2020)
20 Cal. Daily Op. Serv. 11,059, 2020 Daily Journal D.A.R. 11,493

Footnotes
1

Courts have relied on similar evidence in rejecting postSee, e.g.,

United States v. Williams, 946 F.3d 968, 973–74 (7th Cir. 2020);

939 F.3d 397, 404 (1st Cir. 2019). But see

End of Document

Rehaif challenges in the guilty-plea context as well.
United States v. Burghardt,

United States v. Gary, 954 F.3d 194 (4th Cir. 2020).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

LJ - 007 7

Johnson v. United States, 140 S.Ct. 440 (Mem) (2019)
205 L.Ed.2d 250, 19 Cal. Daily Op. Serv. 10,164

140 S.Ct. 440
Supreme Court of the United States.
Lamar JOHNSON, Petitioner
v.
UNITED STATES
No. 19-5181
|
October 21, 2019
Case below,

913 F.3d 793.

End of Document

Opinion
On petition for writ of certiorari to the United States Court
of Appeals for the Ninth Circuit. Motion of petitioner for
leave to proceed in forma pauperis and petition for writ of
certiorari granted. Judgment vacated, and case remanded to
the United States Court of Appeals for the Ninth Circuit for
further consideration in light of
Rehaif v. United States,
588 U.S. ––––, 139 S.Ct. 2191, 204 L.Ed.2d 594 (2019).
All Citations
140 S.Ct. 440 (Mem), 205 L.Ed.2d 250, 19 Cal. Daily Op.
Serv. 10,164
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

LJ - 008 1

United States v. Johnson, 913 F.3d 793 (2019)
19 Cal. Daily Op. Serv. 385, 2019 Daily Journal D.A.R. 197

KeyCite Red Flag - Severe Negative Treatment
Certiorari Granted, Judgment Vacated by Johnson v. United States, U.S.,
October 21, 2019

913 F.3d 793
United States Court of Appeals, Ninth Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
Lamar JOHNSON, Defendant-Appellant.
No. 17-10252
|
Argued and Submitted September
11, 2018 San Francisco, California
|
Filed January 9, 2019
Synopsis
Background: Defendant was charged with being felon in
possession of body armor, along with other drug-related
offenses, and he moved to suppress the fruits of warrantless
search of his person and his vehicle. The United States
District Court for the Northern District of California, William

[4] court did not abuse its discretion when it decided to
increase narcotics defendant's base offense level by four
levels for “us[ing] body armor” during the commission of his
offense.
Affirmed.
Watford, Circuit Judge, filed concurring opinion.
Procedural Posture(s): Appellate Review; Pre-Trial Hearing
Motion.
West Headnotes (29)
[1]

1 Cases that cite this headnote
[2]

[2] search of motor vehicle was proper under the automobile
exception to the warrant requirement;
[3] averments by police officer in search warrant affidavit
provided a substantial basis for believing that motorist's
residence contained cocaine; and

Criminal Law
obtained

Evidence wrongfully

Underlying factual findings in support of district
court's suppression ruling are reviewed for clear
error.

[3]

Criminal Law

Review De Novo

Criminal Law

Application of guidelines

Court of Appeals reviews district court's
construction and interpretation of the Sentencing
Guidelines de novo and its application of the
Guidelines to the facts for abuse of discretion.

Holdings: The Court of Appeals, Wallace, Circuit Judge, held
that:
[1] officer who had effected traffic stop had probable cause to
arrest, so as to permit a warrantless search of motorist's person
immediately prior thereto;

Review De Novo

Court of Appeals reviews de novo the district
court's denial of motion to suppress.

Alsup, J.,
224 F.Supp.3d 881, denied motion, and also
denied motion to suppress the fruits of warranted search
of defendant's home,
2016 WL 7369272, convicted
defendant of offenses charged, and imposed four-level
increase in defendant's base offense level based on fact that
he used body armor during narcotics offense. Defendant
appealed.

Criminal Law

U.S.S.G.. § 1B1.1 et seq.
1 Cases that cite this headnote
[4]

Arrest
Persons and personal effects;
person detained for investigation
Search-incident-to-lawful-arrest exception to the
warrant requirement allows a police officer
to search an arrestee's person and the area
within arrestee's immediate control. U.S. Const.
Amend. 4.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

LJ - 009 1

United States v. Johnson, 913 F.3d 793 (2019)
19 Cal. Daily Op. Serv. 385, 2019 Daily Journal D.A.R. 197

[5]

Search not incident to arrest; time
Arrest
and distance factors
Search incident to a lawful arrest does not
necessarily need to follow the arrest to comport
with the Fourth Amendment, as long as there was
probable cause to arrest at the time of the search,
and as long as the arrest follows the search as part
of a continuous sequence of events. U.S. Const.
Amend. 4.
4 Cases that cite this headnote

[6]

Arrest
general

1 Cases that cite this headnote
[10]

Arrest
general

[11]

What constitutes such cause in

Arrest
general

What constitutes such cause in

What constitutes such cause in

Arrest
Bona fides and validity of arrest;
practicability of procuring warrant
When officer begins an encounter with another
person, and probable cause to arrest exists, the
danger to the police officer, of kind supporting
the search-incident-to-lawful-arrest exception to
the warrant requirement, flows from the fact of
the arrest, and its attendant proximity, stress,
and uncertainty, and not from the grounds for
arrest, so that the precise crime for which officer
has probable cause to arrest is irrelevant to the
validity of the search under this exception. U.S.
Const. Amend. 4.

Officer's state of mind matters only to the extent
that probable cause to arrest must be based on
facts known to the arresting officer at the time of
the arrest. U.S. Const. Amend. 4.

[8]

Search

In applying the search-incident-to-lawful-arrest
exception to the warrant requirement, court does
not balance suspect's interests in not being
searched against officer's interest in searching
him. U.S. Const. Amend. 4.

Mindset of an arresting officer is usually
irrelevant to a seizure's legality. U.S. Const.
Amend. 4.

[7]

Arrest

1 Cases that cite this headnote
[12]

Arrest
Search not incident to arrest; time
and distance factors
As long as a search was incident to and preceding
a lawful arrest, which is to say that probable
cause to arrest existed and the search and arrest
were roughly contemporaneous, the arresting
officer's subjective crime of arrest need not have
been the crime for which probable cause existed
in order for the search to be valid as incident to
lawful arrest. U.S. Const. Amend. 4.

When facts known to officer at time of arrest
provide probable cause to arrest for an offense,
the officer's subjective reason for making the
arrest need not be the criminal offense as to
which the known facts provide probable cause.
U.S. Const. Amend. 4.
1 Cases that cite this headnote

2 Cases that cite this headnote
[9]

Arrest

Scope of Search

Search-incident-to-lawful-arrest exception to the
warrant requirement is based upon the need to
disarm and to discover evidence, but does not
depend on what a court may later decide was
the probability in a particular arrest situation that
weapons or evidence would in fact be found upon
the person of the suspect. U.S. Const. Amend. 4.

[13]

Arrest

Search

Arrest
Probable Cause; Offense in
Officer's Presence
Danger attendant to the custodial arrest, such
as provides the basis for the search-incidentto-lawful-arrest exception to the warrant
requirement, continues until the officer decides

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

LJ - 010 2

United States v. Johnson, 913 F.3d 793 (2019)
19 Cal. Daily Op. Serv. 385, 2019 Daily Journal D.A.R. 197

purported to search glove box for his registration
and proof of insurance by moving his hand
around on the few items that were in the
compartment without actually manipulating any
items, provided officer who had effected traffic
stop with probable cause to believe that motorist
had committed, was committing, or was about to
commit the offense of marijuana transportation,
so as to permit a warrantless search of motorist's
person immediately prior to arresting him,
regardless of whether crime for which he was
later arrested corresponded to that for which
there was probable cause. U.S. Const. Amend. 4.

to arrest, cite or warn, and the probable cause that
officer has to arrest provides a basis for officer
to search for evidence of crime. U.S. Const.
Amend. 4.

[14]

Arrest

Search

Fourth Amendment does not prevent a search
incident to lawful arrest from occurring before
the arrest itself, even if the crime of arrest is
different from the crime for which probable
cause existed. U.S. Const. Amend. 4.
2 Cases that cite this headnote
[15]

Courts
Number of judges concurring in
opinion, and opinion by divided court

[19]

Arrest
general

What constitutes such cause in

“Probable cause to arrest” means that the
facts and circumstances within the arresting
officer's knowledge are sufficient to warrant a
prudent person, or one of reasonable caution, in
believing, in the circumstances shown, that the
suspect had committed, was committing, or was
about to commit an offense. U.S. Const. Amend.
4.

3 Cases that cite this headnote
[20]

Arrest
general

2 Cases that cite this headnote
[18]

Arrest

Narcotics cases

Smell of fresh and burnt marijuana in motorist's
car, along with plastic bags in glove box
and the unusual manner in which motorist

Probable or

4 Cases that cite this headnote

What constitutes such cause in

Probable cause standard for arrest is met when
there is fair probability that a crime has been
committed. U.S. Const. Amend. 4.

Searches and Seizures
reasonable cause

Under the automobile exception to the warrant
requirement, police officer may conduct a
warrantless search of vehicle if there is probable
cause to believe that the vehicle contains
evidence of a crime. U.S. Const. Amend. 4.

2 Cases that cite this headnote
[17]

Particular places or objects

Under the search-incident-to-arrest exception to
the warrant requirement, when arrestee is recent
occupant of motor vehicle, arresting officer
may search the vehicle if arrestee is unsecured
and within reaching distance of the passenger
compartment, or if it is reasonable to believe
evidence relevant to the crime of arrest might be
found in the vehicle. U.S. Const. Amend. 4.

Three-judge panel of the Court of Appeals has
no power to overrule circuit precedent, let alone
Supreme Court precedent.

[16]

Arrest

[21]

Controlled Substances
Searches

Motor Vehicle

Controlled Substances
use of dogs

Odor detection;

Regardless of whether police officer's
warrantless search of motorist's vehicle was
justified as search incident to his lawful arrest,
it was proper under the automobile exception to
the warrant requirement based on odor of burnt
and fresh marijuana which was emanating from
vehicle as officer approached, and which officer,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

LJ - 011 3

United States v. Johnson, 913 F.3d 793 (2019)
19 Cal. Daily Op. Serv. 385, 2019 Daily Journal D.A.R. 197

having worked on County Narcotics Task Force,
immediately recognized as he approached. U.S.
Const. Amend. 4.

[25]

Searches and Seizures
review, in general

Reliability;

Affidavit offered in support of application for
warrant to search suspected drug trafficker's
home did not have to describe facts establishing
confidential police informant's reliability, where
application was not based upon statements by
informant that narcotics would be found in home,
but on officer-affiant's personal observation of
recent controlled drug buys between suspect
and informant, immediately prior to suspect's
returning to the home that was to be searched;
reliability of informant was not material to
whether there was probable cause for warrant.
U.S. Const. Amend. 4.

3 Cases that cite this headnote
[22]

Controlled Substances
corroboration

Scope of inquiry or

When reviewing validity of search warrant
issued by magistrate, courts give great deference
to magistrate's probable cause determination, and
will uphold the warrant's validity if magistrate
was supplied with a substantial basis for
determining existence of probable cause. U.S.
Const. Amend. 4.
2 Cases that cite this headnote
[23]

Searches and Seizures
In general;
conclusiveness of warrant in general

[26]

Controlled Substances
Affidavits,
Complaints, and Evidence for Issuance of
Warrants
Averments by police officer in search warrant
affidavit, that he had twice observed the suspect
distribute crack cocaine to confidential police
informant within 20 days of warrant application,
that, after engaging in these transactions, suspect
had immediately returned to address which
was listed on warrant application and which
he himself identified as his home, and that
officer, based on his experience, knew that drug
traffickers often bought cocaine in bulk, sold it
in small amounts, and used their homes as store
caches for the remainder, provided a substantial
basis for believing that residence contained
cocaine and for magistrate to issue a warrant for
search of residence. U.S. Const. Amend. 4.

Error or

Fact that police officer omitted, from affidavit
offered in support of application for warrant
to search suspected drug trafficker's home,
information regarding the size of the crack
cocaine rocks that officer observed the suspect
sell to confidential police informant did not
affect validity of warrant; assuming arguendo
that officer's omission of precise sizes of these
cocaine rocks was intentional or reckless, it was
clear from affidavit that the controlled buys
involved small amounts of cocaine, so that
inclusion of such facts would not have changed
the meaning of any statement in affidavit. U.S.
Const. Amend. 4.

When reviewing validity of search warrant
issued by magistrate, court, in borderline cases,
will accord a preference to the warrant and to the
decision of the magistrate issuing it. U.S. Const.
Amend. 4.

[24]

Controlled Substances
ambiguity; omissions

[27]

Searches and Seizures
Sufficiency of Evidence

Weight and

Defendant challenging omissions from search
warrant affidavit must make a substantial
showing that the affiant intentionally or
recklessly omitted facts required to prevent
technically true statements in the affidavit from
being misleading. U.S. Const. Amend. 4.

[28]

Sentencing and Punishment
Increasing Offense Level

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

Factors

LJ - 012 4

United States v. Johnson, 913 F.3d 793 (2019)
19 Cal. Daily Op. Serv. 385, 2019 Daily Journal D.A.R. 197

Defendant can “use body armor” during
the commission of narcotics offense, thereby
triggering a four-level increase in his base
offense level at sentencing, simply by wearing
it when he commits the offense; wearing body
armor is the precise means by which a person
employs body armor in a manner to protect the
person from gunfire.

[29]

U.S.S.G. § 3B1.5.

Sentencing and Punishment
Increasing Offense Level

Factors

Sentencing court did not abuse its discretion
when it decided to increase narcotics defendant's
base offense level by four levels for “us[ing]
body armor” during the commission of his
offense based on evidence that, at time of his
arrest with cocaine base, heroin, marijuana, and
oxycodone on his person, and with a loaded
handgun, hydrocodone, plastic bags, scales, and
concentrated cannabis in car that he had been
driving, he was wearing body armor.
§ 3B1.5.

U.S.S.G.

Attorneys and Law Firms
*797 Robin Packel (argued), Research and Writing
Attorney; Gabriela Bischof, Assistant Federal Public
Defender; Steven G. Kalar, Federal Public Defender; Office
of the Federal Public Offender, San Francisco, California; for
Defendant-Appellant.
Philip Kopczynski (argued), Assistant United States
Attorney; J. Douglas Wilson, Chief, Appellate Division;
Alex G. Tse, Acting United States Attorney; United States
Attorney's Office, San Francisco, California; for PlaintiffAppellee.
Appeal from the United States District Court for the
Northern District of California, William Alsup, District
Judge, Presiding, D.C. No. 3:16-cr-00251-WHA-1
Before: J. Clifford Wallace, Johnnie B. Rawlinson, and Paul
J. Watford, Circuit Judges.

Concurrence by Judge Watford
OPINION
WALLACE, Circuit Judge:
Lamar Johnson was stopped while driving and subjected to
a warrantless search of his person and car. One year later,
police conducted a warrant search of his home. The fruits of
these searches led to Johnson's indictment and conviction for
multiple crimes. Johnson appeals, challenging his conviction
and sentence. We have jurisdiction under 28 U.S.C. § 1291
and

18 U.S.C. § 3742, and we affirm.

I.
On August 7, 2015, Lamar Johnson was stopped while
driving by Sergeant Clint Simmont of the East Palo Alto
Police Department. As Simmont spoke with Johnson, he
smelled a combination of burnt and fresh marijuana, which he
recognized through his work patrolling East Palo Alto and on
the San Mateo County Narcotics *798 Task Force. Simmont
asked Johnson for his registration and proof of insurance, to
which Johnson responded that he was borrowing the car and
did not have registration or insurance information. Simmont
asked if Johnson was sure, and Johnson opened the glove
box as if to check. Simmont observed empty plastic bags
and pill bottles in the glove box and noticed that Johnson
“moved his hand around on the few items that were in there,
but he didn't actually manipulate any items.” This manner was
“inconsistent with the way someone would genuinely search
for paperwork.” Simmont then learned from a police dispatch
agent that Johnson had been arrested for parole violations,
which indicated to Simmont that Johnson had been convicted
of a felony.
Simmont asked Johnson to step out of the vehicle and
searched his person. Simmont discovered that Johnson was
wearing a bulletproof vest and arrested him for being a
felon in possession of body armor. After backup police
units arrived, Simmont and the other officers searched
Johnson's car and discovered a loaded handgun, a pill bottle
containing acetaminophen/hydrocodone pills, plastic bags,
scales, and concentrated cannabis. Johnson was transported to
a police station, where a second search of his person revealed
additional controlled substances.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

LJ - 013 5

United States v. Johnson, 913 F.3d 793 (2019)
19 Cal. Daily Op. Serv. 385, 2019 Daily Journal D.A.R. 197

The following year, a separate investigation in San Mateo
County linked Johnson to controlled substance distribution.
On March 16, 2016, a judge in San Mateo Superior Court
issued a warrant to search Johnson, a vehicle allegedly
belonging to him, and a residence in east Palo Alto allegedly
belonging to him. Detective Christopher Sample subscribed
and swore to an affidavit in support of the warrant.
According to his affidavit, Sample met with a confidential
informant (CI) who purportedly could call a man named
“Lamar” at a specific phone number and arrange a sale of
cocaine base. The CI called the number and a male voice
answered the phone and gave a location to meet. Police
observed the CI meet Johnson at that location and exchange
items. Sample then tested the substance the CI received
from Johnson and identified it as cocaine. Sample followed
Johnson from the exchange and stopped him in front of a
house for a minor traffic violation. Johnson's driver license
stated he lived at the house where they had stopped, and
Johnson told Sample that it was his house. Sample then
observed Johnson entering the house before he drove away.
Sample then arranged a second buy through the same CI.
Again, the CI called the phone number, the man provided a
location to meet, and the CI exchanged items with Johnson
after they met at that location. Sample tested the substance
the CI received from Johnson and it again tested positive as
cocaine. Again, police followed Johnson and observed him
return to the same home. The first buy occurred within the
20 days preceding the affidavit, and the second buy within 10
days.
Sample's affidavit also provided information about his
training and experience. Sample averred that drug traffickers
who sold cocaine base often purchased it in bulk quantities
and stored it in their cars and homes. Based on the factual
information recited above and Sample's description of his
training and experience, the superior court issued a search
warrant. The search of Johnson's home recovered a firearm,
ammunition, scales, plastic bags, pills in bottles, and cocaine
base.
Johnson was indicted on nine counts of drug and firearm
offenses. Before trial, Johnson moved to suppress all evidence
recovered from the warrantless search of his person and
car and the warrant search of his house. The district court
denied the *799 motion in two separate orders. Johnson
then stipulated to certain facts and the district court held a

bench trial. The government dismissed two counts and the
district court convicted Johnson on the remaining seven. At
sentencing, the district court increased Johnson's offense level
by four levels because he had used body armor during the
commission of a drug trafficking crime.
Johnson appeals, arguing that the district court erred in
denying his motion to suppress and by applying the body
armor enhancement to his sentence.

II.
[1] [2] “We review de novo the district court's denial of a
motion to suppress. We review the district court's underlying
factual findings for clear error.”
United States v. Camou,
773 F.3d 932, 937 (9th Cir. 2014) (citations omitted).
[3] “We review a district court's construction and
interpretation of the Guidelines de novo and its application
of the Guidelines to the facts for abuse of discretion.” United
States v. Simon, 858 F.3d 1289, 1293 (9th Cir. 2017) (en banc)
(alteration in original removed) (quoting
United States v.
Popov, 742 F.3d 911, 914 (9th Cir. 2014) ).

III.
Johnson argues that the warrantless search of his person, the
warrantless search of his car, and the warrant search of his
home all violated the Fourth Amendment. We address each
argument in turn.

A.
[4]
[5] The search incident to a lawful arrest exception
to the warrant requirement allows a police officer to search
an arrestee's person and the area within the arrestee's
immediate control.
Arizona v. Gant, 556 U.S. 332, 339,
129 S.Ct. 1710, 173 L.Ed.2d 485 (2009). It is well-established
in this circuit that a search, incident to a lawful arrest,
does not necessarily need to follow the arrest to comport
with the Fourth Amendment.

United States v. Smith,

389 F.3d 944, 951 (9th Cir. 2004) (citing
Rawlings v.
Kentucky, 448 U.S. 98, 111, 100 S.Ct. 2556, 65 L.Ed.2d
633 (1980) ). Instead, probable cause to arrest must exist at

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

LJ - 014 6

United States v. Johnson, 913 F.3d 793 (2019)
19 Cal. Daily Op. Serv. 385, 2019 Daily Journal D.A.R. 197

the time of the search, and the arrest must follow “during a
Id. If these conditions
continuous sequence of events.”
are satisfied, the fact that the arrest occurred shortly after the
search does not affect the search's legality.

arrest. See
Knowles v. Iowa, 525 U.S. 113, 117–19, 119
S.Ct. 484, 142 L.Ed.2d 492 (1998) (evaluating whether the
historical justifications for searches incident to arrest applied
to decide whether to recognize a “search incident to citation”
exception).

[6] [7] [8] It is also well-established that the mindset of an
[11]
arresting officer is usually irrelevant to a seizure's legality. See
Devenpeck v. Alford, 543 U.S. 146, 153, 125 S.Ct. 588, 160
Arkansas v. Sullivan, 532 U.S. 769,
L.Ed.2d 537 (2004);
771, 121 S.Ct. 1876, 149 L.Ed.2d 994 (2001) (per curiam);
Atwater v. City of Lago Vista, 532 U.S. 318, 354, 121 S.Ct.
Whren v. United States,
1536, 149 L.Ed.2d 549 (2001);
517 U.S. 806, 813, 116 S.Ct. 1769, 135 L.Ed.2d 89 (1996).
Instead, the officer's state of mind matters only to the extent
that probable cause must be based on “the facts known to
the arresting officer at the time of the arrest.”
Devenpeck,
543 U.S. at 152, 125 S.Ct. 588. Thus, when the officer's
known facts provide probable cause to arrest for an offense,
the officer's “subjective reason for making the arrest need not
be the criminal offense as to which the known facts provide
probable cause.”

Id. at 153, 125 S.Ct. 588.

[12] The justifications for the exception do not lose any

of their force in this context. As explained in

Robinson,

Knowles, when an officer begins an
and reaffirmed in
encounter with another person, and probable cause to arrest
exists, danger to the police officer “flows from the fact of the
arrest, and its attendant proximity, stress, and uncertainty, and
not from the grounds for arrest.”

Robinson, 414 U.S. at 234

n.5, 94 S.Ct. 467 (emphasis added); see also Knowles, 525
U.S. at 117, 119 S.Ct. 484 (quoting same). As in other contexts
then, the precise crime for which an officer has probable
cause is irrelevant. Cf.
Devenpeck, 543 U.S. at 153, 125
S.Ct. 588 (“[An officer's] subjective reason for making the
arrest need not be the criminal offense as to which the known
facts provide probable cause”). So long as the search was
incident to and preceding a lawful arrest—which is to say that
probable cause to arrest existed and the search and arrest are

The question presented in this case is whether these two
well-established principles may coincide without violating
the Fourth Amendment. Johnson contends that to do so would
create a “search incident to probable cause” rule, allowing
officers *800 to search a person whenever probable cause to
arrest exists. Johnson argues that the existence of such a rule
will cause widespread fishing expeditions that are pre-textual
and discriminatory.

roughly contemporaneous,
Smith, 389 F.3d at 951—
the arresting officer's subjective crime of arrest need not have
been the crime for which probable cause existed.

[9] [10] We conclude that the search of Johnson's person
was constitutional. The search incident to a lawful arrest
exception is “based upon the need to disarm and to discover
evidence,” but it “does not depend on what a court may
later decide was the probability in a particular arrest situation
that weapons or evidence would in fact be found upon

484.
Knowles is distinguishable. In that case, the issuance
of the traffic citation for speeding resolved the encounter's
danger, and “the possibility that an officer would stumble onto
evidence wholly unrelated to the speeding offense” was too

the person of the suspect.”
United States v. Robinson,
414 U.S. 218, 235, 94 S.Ct. 467, 38 L.Ed.2d 427 (1973).
Thus, we do not balance Johnson's interests in not being
searched against Sergeant Simmont's interest in searching
him. Instead we evaluate whether, as a general matter, the
justifications for the search incident to lawful arrest exception
retain force in the context of a search performed by an officer
who has probable cause to arrest and shortly thereafter does

[13]

[14] Johnson argues that this result is inconsistent

with
Knowles, in which the Supreme Court held that
warrantless searches preceding an arrest but following a
citation are unconstitutional. See

525 U.S. at 118, 119 S.Ct.

remote to justify the intrusion.
Id. In cases such as the one
before us, the danger attendant to the custodial arrest remains
until the officer decides to arrest, cite, or warn, and probable
cause provides a basis for the officer to search for evidence
of that crime. We therefore join our sister circuits in holding
that Knowles does not prevent a search incident to a lawful
arrest from occurring before the arrest itself, even if the crime
of arrest is different from the crime for which probable cause
existed. See United States v. Diaz, 854 F.3d 197, 206–07 (2d
Cir. 2017); United States v. Coleman, 458 F.3d 453, 458 (6th

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

LJ - 015 7

United States v. Johnson, 913 F.3d 793 (2019)
19 Cal. Daily Op. Serv. 385, 2019 Daily Journal D.A.R. 197

Cir. 2006);
United States v. Sanchez, 555 F.3d 910, 921–
22 (10th Cir. 2009).
[15] As for Johnson's argument that this standard invites
pretextual and discriminatory searches, we do not think that
*801 this case is meaningfully different from cases where
the search precedes the arrest and the arresting officer's
subjective crime of arrest is the same as the crime for which
probable cause existed. The safeguards of probable cause
and an actual custodial arrest, here as there, are what protect
individuals’ Fourth Amendment rights. To the extent Johnson
argues that those safeguards are insufficient, his argument
is properly directed at the search-preceding-arrest doctrine
more generally, and this panel has no power to overrule
circuit precedent, let alone that of the Supreme Court. See
Rawlings, 448 U.S. at 111, 100 S.Ct. 2556 (“Where the
formal arrest followed quickly on the heels of the challenged
search of petitioner's person, we do not believe it particularly
important that the search preceded the arrest rather than vice
versa”).
[16]
[17]
[18] Johnson's alternative argument is that,
even applying this standard, the search of his person was
unconstitutional because Simmont did not have probable
cause to arrest. We disagree. “ ‘[P]robable cause’ to justify
an arrest means facts and circumstances within the officer's
knowledge that are sufficient to warrant a prudent person, or
one of reasonable caution, in believing, in the circumstances
shown, that the suspect has committed, is committing, or
is about to commit an offense.”
Michigan v. DeFillippo,
443 U.S. 31, 37, 99 S.Ct. 2627, 61 L.Ed.2d 343 (1979).
This standard is met when there is a “fair probability” that
a crime has been committed.
United States v. Smith, 790
F.2d 789, 792 (9th Cir. 1986). The smell of fresh and burnt
marijuana in Johnson's car, along with the plastic baggies
in the glove compartment, and Johnson's unusual search of
the glove compartment, indicated a “fair probability” that
Johnson had committed, was committing, or was about to
commit the offense of marijuana transportation. See CAL.
HEALTH & SAFETY CODE § 11360. The search prior to
Johnson's arrest was therefore supported by probable cause.

B.

arrestee is unsecured and within reaching distance of the
passenger compartment, or if it is “reasonable to believe
evidence relevant to the crime of arrest might be found in the
vehicle.”

Gant, 556 U.S. at 343, 129 S.Ct. 1710 (quoting

Thornton v. United States, 541 U.S. 615, 632, 124 S.Ct.
2127, 158 L.Ed.2d 905 (2004) (Scalia, J., concurring in the
judgment) ). Additionally, under the automobile exception, a
police officer may conduct a warrantless search of a vehicle
if there is probable cause to believe the vehicle contains
evidence of a crime. United States v. Faagai, 869 F.3d 1145,
1150 (9th Cir. 2017). The district court relied on both the
search incident-to-lawful-arrest exception and the automobile
exception to uphold the warrantless search of Johnson's car.
[21] We conclude that the search was justified under the
automobile exception, and therefore do not reach whether
the search was also justified as incident to Johnson's arrest.
When Simmont approached Johnson's car, he immediately
smelled a combination of burnt and fresh marijuana. This
provided probable cause for Simmont to search the vehicle.
See
United States v. Barron, 472 F.2d 1215, 1217 (9th
Cir. 1973) (“Further, the fact that an agent familiar with the
odor of marijuana, smelled such an odor emanating from
the automobile when he jumped in to stop it, alone was
sufficient to constitute probable cause for a subsequent search
for marijuana”). Johnson argues that the search of his car was
nonetheless *802 illegal because it was the fruit of the illegal
search of his person. But, as we have already explained, that
search comported with the Fourth Amendment. There being
no poisonous tree, the search of Johnson's car cannot have
been the fruit of an illegal search.

C.
[22] [23] When reviewing the validity of a search warrant
issued by a magistrate, we give “great deference” to the
magistrate's probable cause determination, and will uphold
the warrant's validity if the magistrate was supplied “with a
substantial basis for determining the existence of probable
cause.”

United States v. Leon, 468 U.S. 897, 914–15, 104

S.Ct. 3405, 82 L.Ed.2d 677 (1984) (first quoting
Spinelli
v. United States, 393 U.S. 410, 419, 89 S.Ct. 584, 21 L.Ed.2d

637 (1969), then quoting
Illinois v. Gates, 462 U.S. 213,
[19]
[20] When an arrestee is the recent occupant of a 239, 103 S.Ct. 2317, 76 L.Ed.2d 527 (1983) ). “In borderline
cases, preference will be accorded to warrants and to the
vehicle, the arresting officer may search that vehicle if the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

LJ - 016 8

United States v. Johnson, 913 F.3d 793 (2019)
19 Cal. Daily Op. Serv. 385, 2019 Daily Journal D.A.R. 197

decision of the magistrate issuing it.”

United States v.

Terry, 911 F.2d 272, 275 (9th Cir. 1990) (quoting
United
States v. Martinez, 588 F.2d 1227, 1234 (9th Cir. 1978) ).
Johnson attacks the warrant on three grounds. First, he argues
that Sample's affidavit did not establish probable cause that
contraband would be found in his home. Second, he argues
that the affidavit did not establish the CI's reliability. Third,
he argues that the affidavit omitted the quantity of cocaine
involved in the controlled buys, misleading the magistrate
into issuing the warrant. We disagree with these arguments.

was immaterial to the magistrate's decision. A defendant
challenging omissions from a warrant must make a substantial
showing that “the affiant intentionally or recklessly omitted
*803 facts required to prevent technically true statements
United States
in the affidavit from being misleading.”
v. Stanert, 762 F.2d 775, 781 (9th Cir. 1985). Johnson
has not met that standard here. Assuming arguendo that
Sample's omission of the precise sizes of the cocaine rocks
was intentional or reckless, it was clear from the affidavit
that the controlled buys involved small amounts of cocaine.
Therefore, inclusion of those facts would not have changed
the meaning of any statement in the affidavit.

[24] As to probable cause, this case is controlled by
United States v. Terry. In that case, we held that
an officer's “first hand knowledge” of the defendant's
possession of controlled substances, combined with the
officer's “experience with other drug dealers,” provided
the “substantial basis” for the magistrate to determine that
probable cause existed.
Id. at 276. The same holds true
here. Sample averred that he had twice observed Johnson
distribute cocaine in the 20 days preceding the warrant,
including once within 10 days. He also averred that, after the
buys, he observed Johnson return to the address listed on the
warrant application, which Johnson entered and told police
was “his house.” These facts—combined with Sample's
description of how drug traffickers buy cocaine in bulk, sell
in small amounts, and use their homes as store caches for the
remainder—provided a substantial basis for the San Mateo
Superior Court to issue the warrant. See

id. at 275–76.

[25] As to the CI's reliability, this argument is largely beside
the point. As we have just explained, the basis for probable
cause in the affidavit was Sample's “first hand knowledge”
of Johnson's drug dealing and his “experience with other
drug dealers” in how and where a confirmed drug dealer

IV.
[28]
U.S.S.G. § 3B1.5 provides: “If ... the defendant was
convicted of a drug trafficking crime or a crime of violence;
and ... the defendant used body armor during the commission
of the offense, in preparation for the offense, or in an attempt
to avoid apprehension for the offense, increase by 4 levels.”
U.S.S.G. § 3B1.5(1), (2)(B). The district court increased
Johnson's offense level by four levels under this provision
because Johnson was wearing a bulletproof vest during the
2015 traffic stop. Johnson argues that the district court erred
in doing so because “use” does not mean simply wearing body
armor.
First interpreting the meaning of the guidelines de novo,
we reject Johnson's construction argument. The commentary
to the guidelines states that “ ‘[u]se’ means (A) active
employment in a manner to protect the person from gunfire;
or (B) use as a means of bartering. ‘Use’ does not mean
mere possession (e.g., ‘use’ does not mean that the body
armor was found in the trunk of the car but not used

actively as protection).”
Id. § 3B1.5, cmt. (n.1). There
is no reasonable way to construe this language that would
exclude wearing body armor from the definition of “use.”
Wearing body armor is the precise means by which a person
“employ[s] [the body armor] in a manner to protect the person
from gunfire.” Accordingly, Johnson “used” the body armor
within the meaning of the guidelines simply by wearing it.
Accord United States v. Juarez, 866 F.3d 622, 633 (5th Cir.
2017) (stating “this Court and others have only applied the
body-armor enhancement where the defendant committed a
crime wearing body armor” and collecting cases (emphasis
[26]
[27] Finally, as to the omission of the size of in original) ); United States v. Barrett, 552 F.3d 724, 727–
the cocaine rocks sold, we conclude that any omission

might store contraband. See
id. at 276. The warrant was
not issued, unlike in other cases where informant credibility
is crucial, based on the CI's tip that drugs would be found
in Johnson's home, but on Sample's observations of the
controlled buys and Johnson's actions thereafter. The CI's
only role in establishing probable cause was therefore to
effectuate the controlled buys, and the CI did establish
reliability in this regard because police observed the buys,
corroborating the CI's information.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

LJ - 017 9

United States v. Johnson, 913 F.3d 793 (2019)
19 Cal. Daily Op. Serv. 385, 2019 Daily Journal D.A.R. 197

28 (8th Cir. 2009) (upholding enhancement where defendant
wore body armor at party).
[29] Next reviewing the district court's application of the
guidelines to the facts of this case, there was no abuse
of discretion. Johnson argues that he had an alternative
explanation for why he wore the body armor. But Johnson
also had cocaine base, heroin, marijuana, and oxycodone on
his person while he wore the body armor, as well as a loaded
handgun, hydrocodone, plastic bags, scales, and concentrated
cannabis in his car. On these facts, the district court did
not abuse its discretion by determining that the enhancement
should apply because Johnson wore body armor during a drug
trafficking offense.
AFFIRMED.
WATFORD, Circuit Judge, concurring:
I join the court's opinion because it faithfully applies the rule
United States v. Smith, 389 F.3d 944 (9th
we adopted in
Cir. 2004) (per curiam). There, we held that a warrantless
search that precedes an arrest may nonetheless fall within the
search-incident-to-arrest exception if “the search is conducted
roughly contemporaneously with the arrest” and probable
cause to arrest existed at the time of the search.
Id.
at 952. This rule has not been universally embraced. Many
courts have adopted it, but some have rejected it in *804
favor of a more circumscribed approach. See Joshua Deahl,
Debunking Pre-Arrest Incident Searches, 106 Cal. L. Rev.
1061, 1086–87 (2018) (cataloguing the split in authority). In
my view,
Smith falls on the wrong side of this divide
and should be overruled.
Generally speaking, the police must obtain a warrant before
conducting a search of the “persons, houses, papers, and
effects” protected by the Fourth Amendment. The Supreme
Court has recognized exceptions to that requirement when
circumstances justifying the need to take immediate action are
present, such that obtaining a warrant would be impracticable.
In the case of searches incident to arrest, the justification
for dispensing with the warrant requirement stems from “the
fact of custodial arrest.”
United States v. Robinson, 414
U.S. 218, 236, 94 S.Ct. 467, 38 L.Ed.2d 427 (1973). An
arrest triggers two important government interests that create
the need for an immediate search: protecting officer safety
and preventing the destruction of evidence.

Id. at 235, 94

S.Ct. 467. The Court described those interests in
Chimel
v. California, 395 U.S. 752, 89 S.Ct. 2034, 23 L.Ed.2d 685
(1969):

When an arrest is made, it is reasonable
for the arresting officer to search the
person arrested in order to remove any
weapons that the latter might seek to
use in order to resist arrest or effect his
escape. Otherwise, the officer's safety
might well be endangered, and the
arrest itself frustrated. In addition, it
is entirely reasonable for the arresting
officer to search for and seize any
evidence on the arrestee's person in
order to prevent its concealment or
destruction.

Id. at 762–63, 89 S.Ct. 2034. A lawful arrest also results
in a reduction in the arrestee's Fourth Amendment privacy
interests.
Riley v. California, ––– U.S. ––––, 134 S.Ct.
2473, 2488, 189 L.Ed.2d 430 (2014). Together, the need to
conduct an immediate search and the suspect's diminished
expectation of privacy render warrantless searches incident
to a lawful arrest categorically reasonable under the Fourth
Amendment.

Robinson, 414 U.S. at 234–35, 94 S.Ct. 467.

As the doctrinal underpinnings of the search-incident-toarrest exception suggest, the authority to conduct such a
search does not arise until an arrest is actually made. If
confirmation of that fact were needed, though, the Supreme
Court's decisions in

Cupp v. Murphy, 412 U.S. 291, 93

S.Ct. 2000, 36 L.Ed.2d 900 (1973), and
Knowles v. Iowa,
525 U.S. 113, 119 S.Ct. 484, 142 L.Ed.2d 492 (1998), provide
it.
In
Cupp, the suspect in a murder case came to the police
station voluntarily. Although the police had probable cause
to arrest him, they did not place him under arrest.
412
U.S. at 293–94, 93 S.Ct. 2000. Officers instead temporarily
detained the suspect just long enough to allow them to take
fingernail scrapings, which he was attempting to destroy in
their presence. Given these exigent circumstances, the Court

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

LJ - 018 10

United States v. Johnson, 913 F.3d 793 (2019)
19 Cal. Daily Op. Serv. 385, 2019 Daily Journal D.A.R. 197

held that a search of this limited scope was reasonable.
Id.
at 295–96, 93 S.Ct. 2000. But the Court made clear that,
because the suspect had not been arrested, a more intrusive
search of the type permitted incident to arrest likely would
have been prohibited. The government interests that justify
such a search, the Court explained, were not fully implicated
by a seizure that falls short of an arrest:

Where there is no formal arrest,
as in the case before us, a
person might well be less hostile
to the police and less likely to
take conspicuous, immediate steps to
destroy incriminating evidence on his
person. Since he knows he is going
to be released, he might be likely
instead to be concerned with diverting
*805 attention away from himself.
Accordingly, we do not hold that a full
[search incident to arrest] would have
been justified in this case without a
formal arrest and without a warrant.

Id. at 296, 93 S.Ct. 2000.
In
Knowles, the officer had probable cause to arrest the
defendant for speeding but chose to issue a citation instead.
The officer nonetheless conducted a warrantless search of the
defendant's car, which turned up illegal drugs. The officer
then arrested the defendant on drug-related charges.
525
U.S. at 114, 119 S.Ct. 484. The state courts upheld the validity
of the search, “reasoning that so long as the arresting officer
had probable cause to make a custodial arrest, there need
not in fact have been a custodial arrest.”
Id. at 115–16,
119 S.Ct. 484. The Supreme Court unanimously rejected that
reasoning. The Court held that issuance of a citation does
not trigger either of the government interests that justify a
warrantless search incident to arrest. The threat to officer
safety is not as pronounced when an officer issues a citation,
in part because the officer will not have the extended exposure
to the suspect that follows taking him into custody and
transporting him to a police facility for booking. Id. at 117,
119 S.Ct. 484. Nor does the need to preserve evidence arise,
for once the officer issues the traffic citation “all the evidence

necessary to prosecute that offense” will already have been
obtained.
Id. at 118, 119 S.Ct. 484. The Court therefore
refused to extend the search-incident-to-arrest exception “to a
situation where the concern for officer safety is not present to
the same extent and the concern for the destruction or loss of
evidence is not present at all.”

Id. at 119, 119 S.Ct. 484. 1

Smith is consistent with
I do not think our decision in
these precedents. We have allowed warrantless searches to be
conducted before an arrest is made, provided that the officer
has probable cause to arrest “independent of the fruits of
the search” and the arrest occurs shortly after the search is
conducted.

389 F.3d at 951. Under that rule, however,

Knowles would have been permissible,
the search in
because the officer had probable cause to arrest the defendant
for speeding and he arrested the defendant shortly after the
search uncovered illegal drugs. It's true that in
Knowles
the officer had already issued a citation by the time the search
took place, which some courts have interpreted to mean that
a search incident to arrest is permitted so long as the officer
has not yet decided whether to arrest or cite the suspect. See,
e.g., United States v. Diaz, 854 F.3d 197, 206–08 (2d Cir.
2017); United States v. Pratt, 355 F.3d 1119, 1124–25 n.4
(8th Cir. 2004). What those courts have overlooked is that the
critical fact in
Knowles was not the officer's issuance of
the citation, but rather the absence of an arrest. That absence
is key because, as discussed above, the exigency that justifies
a warrantless search in this context arises from the fact of
arrest,
Robinson, 414 U.S. at 236, 94 S.Ct. 467, not from
the existence of probable cause to arrest.
The rule we adopted in
Smith is doctrinally unsound for
another reason: It makes the legality of the search dependent
upon events that occur after the search has taken place. Under
our rule, the same search conducted on the basis of the
same *806 showing of probable cause is valid if the officer
arrests the suspect afterward, but becomes illegal if the officer
subsequently decides not to make an arrest (say, because the
search turns up nothing). See
Menotti v. City of Seattle,
409 F.3d 1113, 1153 (9th Cir. 2005). That approach is at odds
with the background principle that the reasonableness of a
search turns on “whether the officer's action was justified at
its inception, and whether it was reasonably related in scope to
the circumstances which justified the interference in the first
place.”

Terry v. Ohio, 392 U.S. 1, 19–20, 88 S.Ct. 1868, 20

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

LJ - 019 11

United States v. Johnson, 913 F.3d 793 (2019)
19 Cal. Daily Op. Serv. 385, 2019 Daily Journal D.A.R. 197

L.Ed.2d 889 (1968). Beyond that, we should be skeptical of
any rule that provides officers with an incentive to make an
arrest they would not otherwise have made, solely to insulate
themselves from civil liability for violating an individual's
Fourth Amendment rights.

a routine traffic stop authorizes.
119 S.Ct. 484.

Knowles, 525 U.S. at 117,

It's not clear how that limitation can be squared with the broad

comes from
Rawlings v. Kentucky, 448 U.S. 98, 100
S.Ct. 2556, 65 L.Ed.2d 633 (1980), but even that support

Rawlings we adopted in
Smith. In most
reading of
instances, an officer conducting a valid traffic stop will have
probable cause to believe that the driver has committed some
traffic infraction, which carries with it the latent authority to
arrest even if the infraction is a minor one that could not result

Rawlings did state that
is flimsy. The Supreme Court in
“[w]here the formal arrest followed quickly on the heels of
the challenged search of petitioner's person, we do not believe
it particularly important that the search preceded the arrest

in jail time. See
Atwater v. City of Lago Vista, 532 U.S.
318, 354, 121 S.Ct. 1536, 149 L.Ed.2d 549 (2001). Thus, as
long as the officer has not yet issued a citation, there remains
the possibility, however remote, that the driver could be

Id. at 111, 100 S.Ct. 2556. But
rather than vice versa.”
that language cannot fairly be read as having jettisoned the
requirement that an arrest occur before an officer may conduct
a search incident to arrest. At the time he was searched, the

arrested for the infraction. Under our holding in
Smith,
an officer in these circumstances could presumably conduct
*807 a search “incident” to an arrest for the traffic violation,
knowing that if incriminating evidence is found he can opt
at that point to arrest the driver and thereby validate the
search. That regime would authorize full-blown investigatory
searches of the driver's person (and in some instances of the
vehicle's passenger compartment as well) as a normal incident
of any traffic stop. Permitting such searches seems to me in

The firmest support for the rule we adopted in

Smith

defendant in
Rawlings had plainly been subjected to a
Fourth Amendment seizure amounting to an arrest, based on
probable cause that existed beforehand. See
United States
v. Powell, 483 F.3d 836, 846 (D.C. Cir. 2007) (en banc)
(Rogers, J., dissenting). As I read
Rawlings, the Court
merely held that the search was not invalidated by the fact that
the “formal arrest” (handcuffing, etc.) occurred shortly after
the search took place, rather than before.
Rawlings to permit a pre-arrest
Moreover, interpreting
search, so long as an officer has probable cause to arrest,
seems to conflict with the Court's recent decision in
Rodriguez v. United States, ––– U.S. ––––, 135 S.Ct.
1609, 191 L.Ed.2d 492 (2015). That case held that a traffic
stop may not be “prolonged beyond the time reasonably
required to complete the mission of issuing a ticket for
the violation.”
Id. at 1612 (internal quotation marks
and alteration omitted). As part of a traffic stop's mission,
an officer may make traffic-code-related inquiries, such as
checking the driver's license and registration, see
id. at
1615, and may take steps to ensure officer safety, such as
asking the driver and any passengers to exit the vehicle.
Maryland v. Wilson, 519 U.S. 408, 414–15, 117 S.Ct.
882, 137 L.Ed.2d 41 (1997);
Pennsylvania v. Mimms, 434
U.S. 106, 110–11, 98 S.Ct. 330, 54 L.Ed.2d 331 (1977) (per
curiam). But the Court has indicated that conducting a search
of the driver's person ordinarily falls outside the scope of what

obvious tension with

Rodriguez’s holding.

Requiring that a custodial arrest occur before an officer may
conduct a search incident to arrest admittedly raises difficult
legal issues, since it's not always clear when an officer's
interference with a suspect's Fourth Amendment liberty
interests ripens into an arrest. But we have a well-developed
body of Fourth Amendment case law to guide that inquiry,
see, e.g.,

Florida v. Royer, 460 U.S. 491, 503, 103 S.Ct.

1319, 75 L.Ed.2d 229 (1983) (plurality opinion); Dunaway
v. New York, 442 U.S. 200, 212–13, 99 S.Ct. 2248, 60 L.Ed.2d
824 (1979), which focuses on how a reasonable person in
the suspect's shoes would view the nature of the intrusion,
Michigan v. Chesternut, 486 U.S. 567, 573–74, 108 S.Ct.
1975, 100 L.Ed.2d 565 (1988);
Ochana v. Flores, 347
F.3d 266, 270 (7th Cir. 2003). That focus makes sense in
this context because the arrestee's perception that he has
been placed under arrest is what triggers the need for an
immediate search, to ensure that the arrestee cannot use any
weapons to resist or escape and cannot conceal or destroy any
evidence on his person. The officer's subjective intent is of
course irrelevant to the existence of a custodial arrest, unless

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

LJ - 020 12

United States v. Johnson, 913 F.3d 793 (2019)
19 Cal. Daily Op. Serv. 385, 2019 Daily Journal D.A.R. 197

“that intent has been conveyed to the person confronted.”
Chesternut, 486 U.S. at 575 n.7, 108 S.Ct. 1975.
If it turns out that an officer conducts a search prematurely
—i.e., before the suspect was in fact arrested for Fourth
Amendment purposes—that will not invariably result in
suppression of any evidence discovered during the search.
The government can still attempt to prove, under the
inevitable discovery doctrine, that the officer would have
arrested the suspect anyway, without regard to what was

Those are precisely the cases in which suppression should
occur in order to combat the serious potential for abuse that
otherwise exists when officers possess unfettered discretion
as to whom to target for searches. See Deahl, supra, at 1120–
22. As has been noted, “it is no secret that people of color are
disproportionate victims of this type of scrutiny.”
Utah v.
Strieff, ––– U.S. ––––, 136 S.Ct. 2056, 2070, 195 L.Ed.2d 400
(2016) (Sotomayor, J., dissenting). So long as
Smith
remains the law of our circuit, it will only exacerbate this
problem.

found as a result of the search. See, e.g.,
United States v.
Cotnam, 88 F.3d 487, 495–96 (7th Cir. 1996). Suppression
would occur only in cases in which “but for the search there

All Citations

People v. Reid, 24
would have been no arrest at all.”
N.Y.3d 615, 2 N.Y.S.3d 409, 26 N.E.3d 237, 239 (2014).

913 F.3d 793, 19 Cal. Daily Op. Serv. 385, 2019 Daily Journal
D.A.R. 197

Footnotes
1

Officers are not without recourse to protect themselves when interacting with suspects prior to arrest. An
officer may still perform a protective “patdown” if the officer has reasonable suspicion to believe that the
Knowles, 525 U.S. at 118, 119 S.Ct. 484 (citing
suspect may be armed and dangerous.
392 U.S. 1, 88 S.Ct. 1868, 20 L.Ed.2d 889 (1968) ).

End of Document

Terry v. Ohio,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

LJ - 021 13

